BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

No. 20-381
HAMILTON COUNTY JOB AND FAMILY SERVICES, ET AL.,

Petitioners,
V.

JOSEPH AND MELISSA SIEFERT,

Respondents.
As required by Supreme Court Rule 33. l(h), I certify
that the Brief in Opposition contains 8,780 words,
excluding the parts of the Brief that are exempted by
Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on October 23, 2020.

Becker Gallagher Le.g Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

